IN THE SUPREME COURT OF THE UNITED STATES
No. 20-2218
KEITH FERNANDEZ,
Petitioner,
v.
THE WHARTON SCHOOL OF THE
UNIVERSITY OF PENNSYLVANIA, et al.,
Respondent,
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for
a writ of certiorari contains 5,574 words, according to the word-count tool
in Microsoft Word, including the footnotes and excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 25, 2021.

KEITH M. FERNANDEZ
Counsel of Record, Pro Se
1713 Bridge wa ter Dr
Lake Mary, Florida 32746
321.666.9000 voice
biblematthew5.5@smail. com

